OIG Investigative Reports, Seven Detroit Area Residents Indicted on Charges of Conspiring to Defraud the U.S. Department of Education
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
January 16, 2003
Contact: (313) 226-9758  -  Gina Balaya>
Seven Detroit Area Residents Indicted on Charges of Conspiring to Defraud the U.S. Department of Education
Seven Detroit area residents were indicted yesterday in federal court in Detroit on charges of conspiring to defraud an agency of the United States, that is, the U.S. Department of Education, wire fraud, student financial aid fraud and false statements, United States Attorney Jeffrey G. Collins announced today.
Mahmoud Younis, 55, of Dearborn, Michigan, Walid Alsabbagh, age 40, of Dearborn, Michigan, Jamal Mourtada, 50, of Detroit, Michigan, Sahar Younes, 26, of Dearborn, Michigan, Muna Jaber, 46, of Dearborn, Michigan, Samira Mouzahem, 42, of Detroit, Michigan and Mariam Chbib Chbib, 39, of Dearborn, Michigan were charged in a four count indictment, said Collins, who was joined in the announcement by Secretary of Department of Education Rod Paige and Assistant Inspector General for Investigation, Donald Reid.
Younis was the owner of The Training Center (TTC) located on Schaefer Road in Dearborn, Michigan, Walid Alsabbagh was employed at TTC as an instructor, head of the computer department and registrar, Jamal Mourtada was the Director of Education and an instructor, Sahar Younes was an instructor and Muna Jaber was a financial aid assistant and admissions officer at TTC.  Samira Mouzahem and Mariam Chbib Chbib were, at one time, students at TTC.
The Department of Education (DOE) provides financial aid to eligible institutions on behalf of eligible students in the form of Federal Pell grants, Supplemental Educational Opportunity Grants and Federal Family Education Loans.  In order for a student to be eligible to receive federal financial aid, the student must possess a high school diploma or its equivalent - a General Educational Development (GED) certificate, or has obtained a passing score on an independently administered test.  For a school to qualify to receive DOE funds it must obtain a state licensor and accreditation by a recognized accrediting organization and must agree to follow all of the DOE regulations relating to the disbursement and accounting of DOE funds.
The indictment alleges that defendants Younis, Alsabbagh, Mourtada, Younes and Jaber falsified or directed the falsification of records and violated regulations in order to continue accreditation and to receive funds from the DOE by falsifying G.E.D. certificates, high school diplomas, Ability to Benefit Test and certifications of foreign high school education.  In addition, records of students enrolled in or attending classes in ineligible programs were altered and falsified to make it appear as though the students were in an eligible program.  The ineligible programs included English as a second language and automated computer aided design.  The funds that DOE provided were used for purposes other than to further student education.  The amount of loss suffered by the Department of Education is estimated to be approximately $875,000.
Defendants Mouzhem and Chbib are charged with making a false statement in that they claimed to have completed their high school education in a foreign country in order to be eligible for student financial aid funds.
Each count carries a maximum penalty of 5 years in prison.  Any sentence will be imposed under the United States Sentencing Guidelines according to the nature of the offense and the criminal background, if any, of the defendants.
An indictment is only charge and is not evidence of guilt.  A defendant is entitled to a fair trial in which it will be the government's burden to prove guilty beyond a reasonable doubt.
The case was investigated by the Office of Inspector General, U.S. Department of Education.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov